DEPARTMENT OF HOMELAND SECURITY

   Office of Inspector General


  Special Transient Accommodations 

      Program For the Evacuees 

   From Hurricanes Katrina and Rita 





                             U.S. Department of Homeland Security
OIG-07-31                February 2007
                                                              Table of Contents

                                                                                                                                                 Page
Independent Accountants’ Report 

Executive Summary .......................................................................................................................1 

Background ....................................................................................................................................1 

Objective, Scope and Methodology .............................................................................................2

Results of the Review .....................................................................................................................3 

                 A. Contractors Could Not Validate Eligibility ........................................................3 

                 B. Contractors Could Not Validate Occupancy ......................................................4 

                 C. Unallowable Charges .............................................................................................5 

                 D. Contractors Billed Excessive Room Rates ..........................................................5 

                 E. Contractors Could Not Ensure Billing Integrity.................................................6 

Other Matters ...........................................................................................................................................7

Appendices Schedule of Questioned Costs ............................................................................................ 9

                 A.     Schedule of Hotels/Motels With Unsupported Eligibility...........................................10 

                 B-1. Schedule of Hotels/Motels With No Registration Cards On File...............................11 

                 B-2. Schedule of Hotels/Motels With No “Signed” Registration Card On File ...............12 

                 C. Schedule of Hotels/Motels With Rates That Exceeded Published Rates ...................13 

                 D. Schedule of Questioned Costs ...........................................................................14 





Acronyms
           ARC                     American Red Cross
           BPA                     Blanket Purchase Agreement
           CLC                     Corporate Lodging Consultants
           DHS                     Department of Homeland Security
           FEMA                    Federal Emergency Management Agency
           OIG                     Office of Inspector General
           OG&C                    Ollie Green & Company
                                  Independent Accountants’ Report 

                                On Applying Agreed-Upon Procedures

                                                 For 

                                  Department of Homeland Security 

                                     Office of Inspector General 

                                    Disaster Assistance Oversight

                               Under Contract No. FIG-90200-06-0011 

                       For The Period August 29, 2005 Through March 31, 2006 





To:    Mr. Matt Jadacki
       Deputy Inspector General Disaster Assistance Oversight
       Department Of Homeland Security – Office Of Inspector General

We have performed the procedures enumerated on pages 2 & 3, which were agreed to by your office
solely to assist you in evaluating the accuracy of lodging invoices submitted by American Red Cross
(ARC) and Corporate Lodging Consultants (CLC) to Federal Emergency Management Agency (FEMA)
for reimbursement under contracts HSFEHQ-06-C-0024 (Special Transient Accommodations Program)
and HSFEHQ-06-F-0047 (FEMA Short Term Lodging Program for Evacuees). Our review also
encompassed determining whether lodging rates billed were reasonable, allowable and necessary;
evacuees were eligible to receive lodging; and effective contracting practices were followed. This
agreed-upon procedures engagement was performed in accordance with applicable Government Auditing
Standards, 2003 revision, Chapter 2 and attestations standards established by the American Institute of
Certified Public Accountants. The sufficiency of these procedures is solely the responsibility of those
parties specified in this report. Consequently, we make no representation regarding the sufficiency of
the procedures described on pages 2 & 3, either for the purpose for which this report has been requested
or for any other purpose.

We were not engaged to, and did not perform an examination, the objective of which would be the
expression of an opinion on financial statements of Department of Homeland Security (DHS).
Accordingly, we do not express such an opinion. Had we performed additional procedures, other
matters might have come to our attention that would have been reported to you.

This report is intended solely for the information and use of Department of Homeland Security-Office of
Inspector General (DHS-OIG), FEMA, ARC, CLC and other appropriate federal government offices.

Ollie Green & Co., CPAs
Certified Public Accountants

Louisville, Kentucky
August 30, 2006
                                  I. Executive Summary 

Ollie Green & Company, CPA’s (OG&C) completed its review of the Special Transient
Accommodations Program funded by FEMA. This program provided interim housing for
Hurricane Katrina evacuees. OG&C was engaged by DHS-OIG to conduct the review.
Review work commenced during June 2006 and was completed during August 2006 and
included reviewing a sample of 3,000 evacuee lodging charges paid by FEMA. Of this
sample, the eligibility of 20% of these evacuee lodging charges for the FEMA program could
not be verified.

ARC and CLC did not always follow procedures authorized by FEMA for determining
evacuee eligibility or require the hotels/motels they used to follow standard industry
protocols (obtaining a signed registration card) for validating room occupancy. In 784 of the
3000 evacuee lodging charges examined, either a registration card had not been retained or
the registration card had not been signed. In addition, ARC and CLC billed room rates
greater than the hotel/motels’ published rates. ARC and CLC did not determine whether
hotel/motels had adequate accounting/billing systems. These problems were exacerbated by
the high occupancy brought on by Hurricane Katrina activity and are discussed in detail in
the body of this report.

                                           II. Background
On August 29, 2005, Hurricane Katrina devastated the Gulf Cost states of Louisiana,
Mississippi, Alabama, and Florida. Within a few weeks (September 24, 2005) Hurricane Rita
hit the Gulf Coast causing further damage to the state of Louisiana and parts of Texas. As a
result of Hurricanes Katrina and Rita, hundreds of thousands of families and individuals were
displaced from their homes in Alabama, Louisiana, Mississippi, and Texas due to damage
and destruction of homes and residences in affected areas. FEMA identified an urgent need
to provide interim shelter for certain families and individuals who were displaced by the
declared disasters in these states. FEMA then initiated the Special Transient
Accommodations Program that was designed to provide temporary housing and emergency
pharmaceuticals1 for Hurricane Katrina evacuees. The program was executed in three stages.

First, there was an understanding or verbal agreement between FEMA and ARC (August 29,
2005 to October 19, 2005), during which ARC identified temporary housing using its
existing network managed by Corporate Lodging Consultants (CLC) to find hotels/motels for
evacuees. This understanding was formalized in a contract signed on October 20, 2005
retroactive to August 29, 2005.

This contract (HSFEHQ-06-C-0024) between FEMA and ARC to provide interim housing
and emergency pharmaceuticals for evacuees through October 24, 2005 was initially funded
in the amount of $250,000,000. The contract was subsequently modified five times prior to
its termination. The five modifications totaled $35,000,000 ($15,400,000, $7,350,000,
1
  While the initial contract (HSFEHQ-06-C0024) was for the provision of temporary housing (lodging) and
pharmaceuticals, the subsequent contract (HSFEHQ-06-F0047) was for emergency lodging only. This
review did not include addressing the emergency pharmaceuticals program.
$4,550,000, $5,950,000, and $1,750,000). The contract also provided for a 10 percent
administrative cost to implement the program. Under this contract, as well as the verbal
agreement referenced above, CLC paid the hotels/motels for lodging charges and invoiced
ARC for reimbursement plus a service fee. This service fee ranged from $2.50 to $3.00 per
room per night and was based on a pre-existing contract between ARC and CLC. ARC then
invoiced FEMA for all charges billed by CLC.

Finally, FEMA awarded a contract (HSFEHQ-06-F-0047) directly to CLC to continue the
interim housing program. This program was called the FEMA Short Term Lodging Program
for Evacuees. This was the final step in transitioning oversight of the Special Transient
Accommodations Program from ARC back to FEMA. The effective date of this contract was
12:01 AM, October 25, 2005 when the FEMA/ARC contract for accommodations and
pharmaceuticals expired. The FEMA/CLC contract was for a period of 40 days with six
optional 30-day extensions, totaling up to 220 days. CLC was paid $2.48 per room per night
for services in administering the program. Under this contract, hotels/motels were paid by
CLC who, in turn, invoiced FEMA for reimbursement. FEMA estimated that 100,000 rooms
per night for 40 nights would be required or 4,000,000 room nights. Average room rates
were estimated at $60 per night.

               III. Objectives, Scope, and Methodology
OG&C, in concurrence with DHS-OIG, judgmentally (non-statistical) sampled 3,000
evacuees from 22 chain and independently owned hotels/motels in 9 high-evacuee/low
evacuee density cities across the country. The objective of the review was to evaluate
whether FEMA through ARC/CLC effectively implemented and executed a plan for the
Special Transient Accommodations Program and Short Term Lodging Program for Evacuees
that would properly determine:

    •   Evacuee eligibility for lodging,
    •   Allowability of charges,
    •   Reasonableness of room rates, and
    •   Compliance with Federal Acquisition Regulations (FAR).

The scope of the review included conducting an entrance conference with DHS-OIG,
FEMA, ARC and CLC officials in Washington, DC to discuss our planned approach and
methodology. During this trip we met with DHS-OIG officials to be briefed on important
contract matters and to obtain copies of pertinent information required to conduct the
work. The scope also included reviewing records located at 22 chain and independently
owned hotels/motels in 9 high-evacuee/low-evacuee density cities located in Louisiana,
Texas, Georgia and Florida. Our original sampling strategy consisted of selecting for
review from the FEMA invoice database, 3,000 evacuees lodged at 22 chain and
independently owned hotels/motels in 12 high-evacuee/low-evacuee density cities.
During the early stages of planning, FEMA estimated that approximately 60,000 rooms
per night would be required to meet evacuee housing needs. In concurrence with DHS
OIG, we judgmentally elected to sample 5% of this estimated per night lodging universe.
We then judgmentally selected our sample from each of the 22 hotels based on the


                                          2

number of evacuees housed at that location. In the selection process we included,
whenever possible, evacuees from each hotel covering the early, middle and late stages of
both (ARC and CLC) contract periods. In this selection process, we wanted to include
both high-evacuee and low-evacuee density cities. These categories (high density and
low density) were judgmentally determined.

During our fieldwork, we modified our sample, decreasing the number of cities from 12
to 9. This change was necessitated because of the method used in the FEMA database to
compile some evacuee housing information. Some invoices mistakenly showed that the
evacuee was housed at the city of the home office for a chain of hotels. The evacuees
were, in fact, housed at multiple locations of the hotel chain, not the home office location
as indicated in the FEMA database. The number of evacuees housed at some of these
previously selected sites did not merit the cost of conducting a review at that site.
Accordingly, we adjusted our sample to meet the overall sampling objectives of our
review.

We also conducted risk assessments of the program activities with DHS OIG officials.
These risk assessments were used to assist in developing procedures required to meet the
objectives of the agreed upon procedure engagement. Four member review teams
traveled to each of the 22 hotels/motels and conducted the following agreed-upon
procedures:

   • 	 Tested hotel/motel records to determine whether evacuees were eligible for 

       lodging under this program, 

   • 	 Tested evacuee folios to determine whether charges other than lodging were 

       billed to FEMA, 

   • 	 Tested lodging rates for reasonableness by comparing billed lodging rates to 

       lodging rates advertised, 

   • 	 Interviewed managers and owners to discuss how lodging rates and charges were
       determined, and
   • 	 Reviewed hotel/motel bills to ARC/CLC for consistency and fiscal integrity.

                             IV. Results of the Review
A. 	Contractors Could Not Validate Eligibility

ARC/CLC did not ensure that hotel and motel owners and managers followed procedures
authorized by FEMA for determining evacuee eligibility. Documentation required to verify
eligibility was not always maintained in the evacuee’s file. ARC/CLC should have
monitored this process in the early stages of the program and required each eligibility
determination to be documented and maintained with the evacuee’s folio. Nineteen of the 22
hotels/motels reviewed did not obtain or maintain sufficient documentation required to
support eligibility for 587 or (20%) of the 3,000 evacuees selected in our sample. CLC
invoiced FEMA $2,606,181 for these evacuees. See Appendix A for details.




                                             3

In establishing basic eligibility criteria, FEMA compiled a list of zip codes based on
FEMA’s declared counties and parishes. This compilation of zip codes was referred to as
Disaster Operations Guidance 1A (DOG 1A). DOG 1A was updated periodically as new
information was provided by FEMA’s field disaster assistance personnel. Under FEMA
guidance, anyone living within the declared counties and parishes was eligible for the
interim housing program. Each lodging facility was instructed to download DOG 1A
from CLC’s website and use listed zip codes to determine evacuee eligibility. ARC/CLC
required evacuees to provide photo identification to hotel operators to validate their pre-
disaster address. If photo identification could not be provided, other documentation, such
as a utility bill, lease or mortgage statement could be substituted. In other cases, where
the evacuee had already interacted with FEMA to independently establish eligibility, the
hotel could accept a FEMA authorization code.

This concept of establishing eligibility was a departure from ARC’s standard approach.
ARC normally utilized disaster assessment information to determine eligibility, based on
verified damage and resulting disaster-related needs, including preliminary damage
assessments and client casework. Hurricane Katrina was so large and impacted so many
individuals and families that ARC determined that it did not have the resources to obtain
detailed damage information or provide client casework in the traditional manner within a
reasonable timeframe. Because of this deviation from ARC’s standard protocol, it was
critical that ARC ensure that hotel personnel obtained and retained eligibility
documentation. According to Federal Acquisition Regulations (FAR), Section 31.201
2(d), a contractor (such as ARC/CLC) is responsible for accounting for costs
appropriately and for maintaining records, including supporting documentation, adequate
to demonstrate that costs claimed have been incurred, are allocable to the contract, and
comply with applicable cost principles.

Most hotel/motel managers and owners in our sample said they were not given specific
instructions or guidelines from ARC/CLC regarding procedures or documentation. Many
hotel/motel managers and owners said that they were severely understaffed and
overwhelmed with the huge number of evacuees to be processed and housed and did not
always obtain and retain documentation necessary to prove eligibility.

Because ARC/CLC did not obtain and retain documentation required to prove evacuee
eligibility, lodging payments may have been made for ineligible participants. This
departure from FAR requirements may have resulted in payments for ineligible evacuees.
Questioned costs are $2,606,181.

Recommendations:

We recommend that FEMA require ARC and CLC as part of FAR compliance:

       1. Contact hotels/motels where eligibility was questioned to resolve the eligibility
       issues cited and, where eligibility is not demonstrated, credit FEMA for payments
       for ineligible participants.



                                            4

B. Contractors Could Not Validate Occupancy
ARC/CLC did not require definitive proof of occupancy prior to authorizing payments to
hotels. Hotel and motel owners and managers did not always follow standard industry
protocol (obtaining a signed registration card for occupants) for validating room
occupancy. Many rooms were billed to ARC/CLC without any “signed” guest
registration cards on file.

Hotels listed in Appendix B-1 did not obtain and maintain guest registrations cards for
two hundred seventy eight (278) evacuees validating their occupancy. Because 183 of
these evacuees were cited under the “unsupported eligibility” finding, only 95 will be
cited under this finding. Questioned costs are $246,419.

Hotels listed in Appendix B-2 did not obtain and retain “signed” guest registration cards
for five hundred and six (506) evacuees validating their occupancy. Because 362 of these
evacuees were cited under the “unsupported eligibility” finding, only 144 will be cited
under this finding. Questioned costs are $547,053.

According to FAR, Section 31.201-2(d), a contractor (such as ARC/CLC) is responsible
for accounting for costs appropriately and for maintaining records, including supporting
documentation, adequate to demonstrate that costs claimed have been incurred, are
allocable to the contract, and comply with applicable cost principles.

Hotel/motel managers and owners said that, in the course of attempting to house and
accommodate evacuees within the chaotic environment that accompanies a disaster with
the magnitude of Hurricane Katrina, their managers and front line employees did not
always obtain and retain appropriate documentation nor did ARC/CLC require the
documentation for payment.

This departure from FAR requirements may have resulted in FEMA payments of
$793,472 ($246,419 – No Registration Cards, and $547,053 – No “Signed” Registration
Cards) for rooms that were not supported with proper registration documentation.

Recommendations:

We recommend that FEMA require ARC and CLC as part of FAR compliance:

       2. Determine whether rooms with no registration cards were occupied with
       eligible evacuees.

       3. Determine whether rooms with no “signed” registration cards were occupied
       with eligible evacuees.

       4. Credit FEMA for rooms that cannot be associated with an eligible evacuee.




                                            5

C. Unallowable Charges

Unallowable charges such as food, telephone, laundry, movies etc., were, appropriately,
not billed to ARC/CLC. Most hotels/motels had systems in place that did not allow
services other than lodging to be accessed without some form of prepayment. In other
cases, local phone service was free or absorbed by the hotel. No unallowable charges
were billed to the program.

D. Contractors Billed Excessive Room Rates

For thirteen of the twenty-two hotels/motels, ARC/CLC billed FEMA for room rates
greater than published rates. The published rates examined were post-Katrina rates as we
were not able to obtain pre-Katrina rates for the review. At a minimum, room rates
should have been assessed for reasonableness prior to, or shortly after, engaging the
hotel. ARC/CLC needs stronger controls to screen for excessive room rates.

As indicated in Appendix C, the range for the high variance rate column was from $1.18
to $116.71. This denotes that some hotels/motels charged, on the average, as little as
$1.18 per night over their post disaster web-site published rates and other hotels/motels
charged as much as $116.71 per night more. The rates shown in Appendix C were
average rates. Some of the hotel rates were higher and some were lower than the
“calculated” average shown in Appendix C. Appendix C also identifies eight
hotels/motels that billed less than their post disaster web site published rates.

According to FAR, Section 31.201-3 (a), a cost is reasonable if, in its nature and amount,
it does not exceed that which would be incurred by a prudent person in the conduct of a
competitive business. FAR Section 31.201-3 (a) further states that, if an initial review of
the facts results in a challenge of a specific cost by the contracting officer or the
contracting officer’s representative, the burden of proof shall be upon the contractor to
establish that such cost is reasonable. ARC/CLC should have determined that
hotel/motel rates were reasonable prior to engagement.

Many of the hotel/motel managers said that hotel pricing was based on demand and
seasonality. In the high season, (which varied from hotel to hotel) prices are elevated and
low season prices are lowered because of low demand. Based on our analysis in
Appendix C, the smaller independent hotels/motels billed the higher rates. This departure
from FAR requirements by ARC/CLC may have resulted in the payment of excessive
lodging charges by FEMA.

Recommendations:

We recommend that FEMA require ARC and CLC as part of FAR compliance to:

       5. Determine whether pricing by hotels/motels was within a reasonable range.




                                             6

E. Contractors Could Not Ensure Billing Integrity

ARC/CLC did not ensure billing integrity. There were numerous errors (i.e. wrong -
room number, room rate, name, dates) on invoices submitted to CLC for payment.
Invoices had to be revised for errors and some were submitted and paid more than once.
CLC and hotels/motels are still trying to correct errors for over and under payments
made. Contributing to billing issues was the “prepayment of lodging charges” allowed
by FEMA for hotels/motels housing evacuees. FEMA allowed hotels/motels to invoice
for lodging two weeks in advance of evacuee lodging. Although this practice was done
with good intent (to ease the financial burden of lodging facilities housing evacuees), it
created financial confusion. Many evacuees moved out prior to the expiration of the two-
week period and ARC and CLC were unable to properly account for these FEMA credits.
A substantial amount of these excessive prepayments were not refunded or credited to
FEMA.

According to FAR, Section 31.201-2(d), a contractor (such as ARC/CLC) is responsible
for accounting for costs appropriately and for maintaining records, including supporting
documentation, adequate to demonstrate that costs claimed have been incurred, are
allocable to the contract, and comply with applicable cost principles.

Hotel/motel managers said they were overwhelmed with the number of evacuees to be
processed and invoiced in a short period of time. They said that it was difficult to track
rooms and evacuees during this time of high occupancy and transition. Because of this
problem, FEMA may have been excessively billed by ARC/CLC for lodging paid to
hotels/motels for Hurricane Katrina evacuees.

Recommendations:

We recommend that FEMA require ARC and CLC to:

       6. Determine whether payments made to hotels/motels were accurately
       calculated.

       7. Quantify credits due FEMA for early evacuee departure during the advance
       payment period.

       8. Credit FEMA for any duplicate or erroneous payments.


                               V. OTHER MATTERS
ARC Billed Employee/Volunteer Lodging To The Evacuee Housing Program

Early in the conduct of our review, ARC informed us that it had invoiced FEMA
$103,000 for lodging charges incurred by its employees and volunteers. These lodging


                                             7

charges were billed to the FEMA interim housing program.     ARC discovered these
charges after the DHS-OIG reviews had begun.

ARC agreed to compile information on payments received for its employee/volunteer
lodging charges billed to FEMA. Currently, we have received no additional information
from ARC regarding these charges.

According to FAR, Section 31.201-2(d), a contractor (such as ARC/CLC) is responsible
for accounting for costs appropriately and for maintaining records, including supporting
documentation, adequate to demonstrate that costs claimed have been incurred, are
“allocable to the contract,” and comply with applicable cost principles.

During the review, a separate Management Advisory Report was issued to the Senior
Procurement Executive of FEMA recommending that FEMA: determine the extent of the
unallowable charges under the lodging contract; initiate collection procedures to recoup
unallowable charges from ARC; and develop and implement controls to identify and
prevent future unallowable charges under lodging contracts.




                                            8

APPENDICES 





    9

                    Appendix A
                 Unsupported Eligibility
                       By Hotel



 Hotel        Hotel        Total       Number of   Questioned
Number       Location      Number of   Unsupported    Costs
                           Evacuees    Eligibility
                           In Sample

   1     Houston, TX            62         4           $5,109.27
   2     Houston, TX           157         0                0.00
   3     Houston, TX           241         0                0.00
   4     Houston, TX           290         3            5,171.25
   5     Stafford, TX           95          1             497.98
   6     Stafford, TX          105         11          18,060.49
   7     Dallas, TX            139          2           1,344.00
   8     Dallas, TX             61          0               0.00
   9     New Orleans, LA        89         69         600,211.02
  10     New Orleans, LA       223        212         703,239.20
  11     New Orleans, LA       188         91         618,185.89
  12     Atlanta, GA           182          3           1,440.96
  13     Atlanta, GA            44          3          19,603.50
  14     Norcross, GA          115         18          11,740.22
  15     Norcross, GA           72          3           9,792.65
  16     Panama City, FL       139         10          81,898.27
  17     Panama City, FL       361         66         256,171.51
  18     New Orleans, LA        39          1          16,875.20
  19     New Orleans, LA        77          6          81,312.00
  20     New Orleans, LA        85          3           5,288.40
  21     Baton Rouge, LA       113         53         103,597.05
  22     Baton Rouge, LA       123        28           66,642.78
                              3,000       587      $2,606,181.64




                             10

                   Appendix B-1
              No Registration Card On File
                        By Hotel



 Hotel   Hotel             Total        Rooms Billed
Number   Location           Number of     With No      Questioned
                            Evacuees    Registration     Costs
                            In Sample   Card On File


  1      Houston, TX            62           0               $0.00
  2      Houston, TX            157          0                0.00
  3      Houston, TX            241          0                0.00
  4      Houston, TX            290         47           99,290.05
  5      Stafford, TX            95         13           11,431.77
  6      Stafford, TX           105          0                   0
  7      Dallas, TX             139          2            2,994.80
  8      Dallas, TX              61          0                   0
  9      New Orleans, LA         89          2           14,673.85
 10      New Orleans, LA        223          0                0.00
 11      New Orleans, LA        188          2           14,109.95
 12      Atlanta, GA            182          0                0.00
 13      Atlanta, GA             44          0                0.00
 14      Norcross, GA           115          0                0.00
 15      Norcross, GA            72          1              147.00
 16      Panama City, FL        139          0                0.00
 17      Panama City, FL        361          3            4,896.00
 18      New Orleans, LA         39          1           20,121.00
 19      New Orleans, LA         77          0                0.00
 20      New Orleans, LA         85          1            2,576.40
 21      Baton Rouge, LA        113          2            6,739.70
 22      Baton Rouge, LA        123         21           69,438.56
                               3,000        95         $246,419.08




                             11

                    Appendix B-2
          No “Signed” Registration Card On File
                       By Hotel




 Hotel   Hotel             Total            Rooms Billed
Number   Location            Number of         With No         Questioned
                             Evacuees         “Signed”           Costs
                             In Sample     Registration Card
                                               On File

   1     Houston, TX                 62           28           $108,271.62
   2     Houston, TX                157            0                  0.00
   3     Houston, TX                241            0                  0.00
   4     Houston, TX                290            0                  0.00
   5     Stafford, TX                95           10              8,780.53
   6     Stafford, TX               105            4                630.87
   7     Dallas, TX                 139            1              2,478.00
   8     Dallas, TX                  61            0                  0.00
   9     New Orleans, LA             89            6             59,094.25
  10     New Orleans, LA            223            0                  0.00
  11     New Orleans, LA            188            2              4,615.80
  12     Atlanta, GA                182           10              8,915.94
  13     Atlanta, GA                 44            1              3,935.18
  14     Norcross, GA               115            3              2,647.40
  15     Norcross, GA                72           30            110,226.19
  16     Panama City, FL            139            3             13,640.80
  17     Panama City, FL            361           20             81,550.14
  18     New Orleans, LA             39            3             39,245.32
  19     New Orleans, LA             77            1             25,137.00
  20     New Orleans, LA             85            3             29,967.60
  21     Baton Rouge, LA            113            9             22,983.35
  22     Baton Rouge, LA            123          10              24,933.14
                                   3,000         144           $547,053.13




                                   12

                                 Appendix C
                    Rates Billed Exceeded Average Published
                                Rate By Hotel

            Hotel        Hotel                 Published         “Average”
           Number        Location              Room                Room        High
                                               Rate                Rate        Variance
                                                                   Billed


              1          Houston, TX              $63.00          $73.47         $10.47
              2          Houston, TX             $49.99           $42.59
              3          Houston, TX             $45.00           $36.09
              4          Houston, TX              $75.00          $88.10         $13.10
              5          Stafford, TX             $49.00          $33.49
              6          Stafford, TX             $54.99          $62.98          $7.99
              7          Dallas, TX               $99.00          $100.18         $1.18
              8          Dallas, TX               $79.00           $34.81
              9          New Orleans, LA         $119.00          $146.49        $27.49
             10          New Orleans, LA          $99.00          $142.10        $43.10
             11          New Orleans, LA          $95.00          $148.30        $53.30
             12          Atlanta, GA              $84.99          $86.71         $1.72
             13          Atlanta, GA              $64.99          $51.96
             14          Norcross, GA             $49.99          $34.74
             15          Norcross, GA             $98.00          $50.21
             16          Panama City, FL         $119.00          $85.42
             17          Panama City, FL          $80.46          $83.20          $2.74
             18          New Orleans, LA          $79.00          $142.27         $63.27
             19          New Orleans, LA          $89.00          $205.71        $116.71
             20          New Orleans, LA          $79.97          $135.60         $55.63
             21          Baton Rouge, LA          $62.00          $58.04
             22          Baton Rouge, LA          $32.00          $38.56          $6.56




Note:

All published rates shown in the table above were post Hurricane Katrina rates advertised in the
hotels/motels website.




                                               13

                                   Appendix D
                          Schedule of Questioned Costs
                                By Hotel/Motel



 Hotel   Total       Hotel          Unsupported         No              No           Total
Number   Number of   Location        Eligibility    Registration     “Signed”      Questioned
                                                     Card On        Registration     Costs
         Evacuees
                                                       File          Card On
         In Sample                                                     File

  1           62     Houston, TX       $5,109.27           $0.00    $108,271.62     $113,380.89
  2          157     Houston, TX            0.00            0.00           0.00             0.0
  3          241     Houston, TX            0.00            0.00           0.00             0.0
  4          290     Houston, TX        5,171.25       99,290.05           0.00       104,461.3
  5           95     Stafford, TX         497.98       11,431.77       8,780.53       20,710.28
  6          105     Stafford, TX      18,060.49            0.00         630.87       18,691.36
  7          139     Dallas, TX         1,344.00        2,994.80       2,478.00         6,816.8
  8           61     Dallas, TX             0.00            0.00           0.00             0.0
  9          89      New Orleans,     600,211.02       14,673.85      59,094.25      673,979.12
                     LA
  10         223     New Orleans,     703,239.20             0.00           0.00      703,239.2
                     LA
  11         188     New Orleans,     618,185.89       14,109.95        4,615.80     636,911.64
                     LA
  12         182     Atlanta, GA        1,440.96             0.00      8,915.94        10,356.9
  13          44     Atlanta, GA       19,603.50             0.00      3,935.18       23,538.68
  14         115     Norcross, GA      11,740.22             0.00      2,647.40       14,387.62
  15          72     Norcross, GA       9,792.65           147.00    110,226.19      120,165.84
  16         139     Panama City,      81,898.27             0.00     13,640.80       95,539.07
                     FL
  17         361     Panama City,     256,171.51         4,896.00     81,550.14      342,617.65
                     FL
  18         39      New Orleans,      16,875.20       20,121.00      39,245.32       76,241.52
                     LA
  19         77      New Orleans,      81,312.00             0.00     25,137.00         106,449
                     LA
  20         85      New Orleans,        5,288.40        2,576.40     29,967.60         37,832.4
                     LA
  21         113     Baton Rouge,     103,597.05         6,739.70     22,983.35       133,320.1
                     LA
  22         123     Baton Rouge,      66,642.78       69,438.56      24,933.14      161,014.48
                     LA
            3,000                   $2,606,181.64    $246,419.08    $547,053.13    $3,399,653.85




                                         14

Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General (OIG) at
(202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov/oig.


OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the
OIG Hotline at 1-800-323-8603; write to DHS Office of Inspector General/MAIL
STOP 2600, Attention: Office of Investigations - Hotline, 245 Murray Drive, SW,
Building 410, Washington, DC 20528, fax the complaint to (202) 254-4292; or email
DHSOIGHOTLINE@dhs.gov. The OIG seeks to protect the identity of each writer
and caller.




                                           15
